4/14/2016

Credit Card Services

Visa Bonus Rewards Card Terms and Conditions
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT: To help the government fight the funding of terrorism
and money laundering activities, federal law requires all financial institutions to obtain, verify and record information that identifies each person
who opens an account. What this means for you: When you open an account, we will ask you for your name, address, date of birth and other
information that will allow us to identify you. We may ask to see your driver’s license or other identifying documents.
We may change APRs, fees, and other Account terms in the future based on your experience with Elan Financial Services and its
affiliates as provided under the Cardmember Agreement and applicable law.

We apply your minimum payment to balances with lower APRs first, including promotional APRs. Amounts paid over the minimum payment will
be applied in the order of highest to lowest APR balances.
Should your application for the Signature/World Bonus Rewards Card be denied, submitting this application constitutes your application for a
Platinum Bonus Rewards Card, which does not offer the same Visa or MasterCard Sponsored Benefits.

https://online1.elancard.com/oad2/terms.controller?step=display&locationCode=24310&productId=05

1/3

4/14/2016

Credit Card Services

Disclosure of Credit Card Terms
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Bonus Rewards Card

0% introductory APR for the first 6 billing cycles. After that,
Signature Bonus Rewards: 12.24% to 23.24% based on your creditworthiness when
you open your account.
Platinum Bonus Rewards:
you open your account.

12.24% to 23.24% based on your creditworthiness when

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

0% introductory APR for the first 6 billing cycles for balances transferred within 186 days from
account opening. After that,
Signature Bonus Rewards: 12.24% to 23.24% based on your creditworthiness when you open
your account.
Platinum Bonus Rewards: 12.24% to 23.24% based on your creditworthiness when you open
your account.

APR for Cash Advances

This APR will vary with the market based on the Prime Rate.
Signature Bonus Rewards: 24.24%
Platinum Bonus Rewards: 24.24%
This APR will vary with the market based on the Prime Rate.

Penalty APR and When it Applies
How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau

Not applicable
Your due date is 24 ­ 30 days after the close of each billing cycle. We will not charge you interest
on purchases if you pay your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $2.
To learn more about factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

Fees

Visa Bonus Rewards Card

Annual Fee
• Annual Membership Fee

None

Transaction Fees
•
•
•
•
•
•
•

Balance Transfer
Convenience Check Cash Advance1
Cash Advance ATM
Cash Advance
Cash Equivalent Advance
Overdraft Protection2
Foreign Transaction

Either 3% of the amount of each transfer or $5 minimum, whichever is greater.
Either 3% of the amount of each advance or $5 minimum, whichever is greater.
Either 4% of the amount of each advance or $10 minimum, whichever is greater.
Either 4% of the amount of each advance or $10 minimum, whichever is greater.
Either 4% of the amount of each advance or $20 minimum, whichever is greater.

$10
2% of each foreign purchase transaction or foreign ATM advance transaction in U.S. Dollars
3% of each foreign purchase transaction or foreign ATM advance transaction in a Foreign
Currency

Penalty Fees
• Late Payment
• Returned Payment
• Overlimit

Up to $37
Up to $35

None

How We Will Calculate Your Balance: We use a method called 'average daily balance (including new purchases)'. See this account
agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Cardmember Agreement.
The information about the costs of the card described in this application is accurate as of 04/2016. This information may have changed after this
date. To find out what may have changed, call us at 1­866­234­4691 (We accept relay calls) or write to us at P.O. Box 6354, Fargo, ND 58125­
6354.
1Not all

products receive Convenience Checks.

2Not all

products offer Overdraft Protection. $10 per occurrence.

https://online1.elancard.com/oad2/terms.controller?step=display&locationCode=24310&productId=05

2/3

4/14/2016

Credit Card Services

Notice to New York Residents: You may contact the New York State Department of Financial Services by telephone at (800)342­3736 or visit
its website at www.dfs.ny.gov for free information on comparative credit card rates, fees and interest­free periods.
Notice to California Residents: An applicant, if married, may apply for a separate account.
Notice to Married Wisconsin Residents: No provision of any marital property agreement, unilateral statement under section 766.59 of the
Wisconsin statutes or court decree under section 766.70, adversely affects our interest unless we, prior to the time the credit is granted or an
open­end credit plan is entered into, are furnished a copy of the agreement, decree or court order, or have actual knowledge of the adverse
provision. IF YOU ARE A MARRIED WISCONSIN RESIDENT, CREDIT EXTENDED UNDER THIS ACCOUNT WILL BE INCURRED IN THE
INTEREST OF YOUR MARRIAGE OR FAMILY.
Notice to Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all creditworthy
customers, and that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights
Commission administers compliance with this law.
IMPORTANT TERMS AND APPLICATION AGREEMENT
By submitting this application, you understand and agree that Elan Financial Services (“we,” “us” or “our”), as the creditor and issuer of your
Account, will rely on the information provided here in making this credit decision, and you certify that such information is accurate and complete
to the best of your knowledge. If we open an Account based on this Application, you will be individually liable (or, for joint Accounts, individually
and jointly liable) for all authorized charges and for all fees referred to in the most recent Cardmember Agreement, which may be amended
from time to time. We may request consumer credit reports about you for evaluating this Application and in the future for reviewing Account
credit limits, for Account renewal, for servicing and collection purposes and for other legitimate purposes associated with your Account. Upon
your request, we will inform you if a consumer report was requested and, if it was, provide you with the name and address of the consumer
reporting agency that furnished the report. By providing us with a telephone number for a cellular phone or other wireless device, including a
number that you later convert to a cellular number, you are expressly consenting to receiving communications—including but not limited to
prerecorded or artificial voice message calls, text messages, and calls made by an automatic telephone dialing system—from us and our
affiliates and agents at that number. This express consent applies to each such telephone number that you provide to us now or in the future
and permits such calls for non­marketing purposes. Calls and messages may incur access fees from your cellular provider. By submitting this
application, you also agree that we may verify your employment, income, address and all other information provided with other creditors, credit
reporting agencies, employers, third parties and through records maintained by federal and state agencies (including state motor vehicle
departments) and waive any rights of confidentiality you may have in that information under applicable law. Should your application for the
Signature/World Bonus Rewards Card be denied, submitting this application constitutes your application for a Platinum Bonus Rewards Card,
which does not offer the same Visa or MasterCard Sponsored Benefits. You agree that, in order to open and administer the Account that may be
established as a result of this Application, we and the correspondent financial institution that solicited this Application may share certain
information about you and your ongoing Account activity. By submitting this application, you certify that you read and understood the
disclosures here and you agree to the terms of this Application.
Rewards Program Rules: Rewards Program Rules: From the date you open your Account until your Account is closed, you will receive 1
Reward Point (“Point”) for each dollar of Net Purchases charged to your Bonus Rewards or Bonus Rewards PLUS Card Account during each
billing cycle that the Account is open and current (that is, no Minimum Payment is past due) on the closing date for the billing cycle. During each
monthly billing cycle for a Bonus Rewards Card Account you will also earn additional Points (“Bonus Points”) equal to 25% of the total Points
earned on Net Purchases charged to your account during that billing cycle, making a total of 1.25 points. For a Bonus Rewards PLUS Card
Account you will earn additional Points equal to 50% of the total Points earned on Net Purchases charged to your account during that billing
cycle, for a total of 1.50 points. For both Bonus Rewards and Bonus Rewards PLUS Accounts the number of Points that may accumulate in any
monthly billing cycle for your Account is unlimited. “Net Purchases” for a statement period are determined by totaling all new Purchases
charged to the Account during the billing cycle, then subtracting credits posted to the Account during the billing cycle for returned Purchases
and/or adjustments. Points will not be awarded for Cash Advances or other Account Advances as defined in the Cardmember Agreement.
Points will be awarded to the primary cardmember and may be redeemed by an authorized cardmember on the Account. Cardmembers can
redeem points for round­trip airfare beginning at 25,000 points in addition to Cash Back, Gift Certificates, Name Brand Merchandise Rewards
and more. Points expire five years from the end of the quarter in which they are earned. Account must be open and in good standing to earn
and redeem rewards and benefits. Complete terms and conditions for the Rewards Program will be provided to cardmembers. Rewards are
administered by a third party.
The creditor and issuer of these Cards is Elan Financial Services, pursuant to separate licenses from Visa U.S.A. Inc., MasterCard International
Incorporated, and American Express. MasterCard is a registered trademark of MasterCard International Incorporated. American Express is a
federally registered service mark of American Express.

Privacy Pledge | © 2016 Elan Financial Services
Column: OAD E OPROD1B / oad.016.03_Build_32

https://online1.elancard.com/oad2/terms.controller?step=display&locationCode=24310&productId=05

3/3

